m

r*

1

;

f— I

IN THE
SUPREME COURT OF THE UNITED STATES

KEVEN ANTHONY MORGAN

CASE NO.
State OfN.C case no.!5crs-52140-43\
16crs.-1242-43
SL'preJTTcr'TTtTusT

PLAINTIFF

United States District Coui
For The Eastern District
Case no.5:19-HC-2153-IV

VS.

Fii-.uO

SEP 3 0
offsce O" n-r- o'

STATE OF NORTH CAROLINA
DEFENDANT

United States Court Of Appeals
For the Fourth Circuit
Case no.20-1458

PETITION FOR WRIT OF CERTIORARI

KEVEN ANTHONY MORGAN
IRWIN COUNTY DETENTION CENTER
132 COTTON DRIVE
OCILLA GEORGIAN 1774.

received

OCT - 8 2020

r v

I

IN THE
SUPREME COURT OF THE UNITED STATES

KEVEN ANTHONY MORGAN

CASE NO.
State Of N.C case no.l5crs-52140-43\
16crs-1242-43

PLAINTIFF

United States District Court
For The Eastern District
Case no.5:19-HC-2153-M

VS.
STATE OF NORTH CAROLINA
DEFENDANT

United States Court Of Appeals
For the Fourth Circuit
Case no.20-1458

PETITION FOR WRIT OF CERTIORARI
QUESTION PRESENTED

LAW ENFORCEMENT AND DISTRICT ATTORNEY FAIL TO ATTACHED THE
UNITED STATES ATTORNEY GENERAL SPECIAL DESIGNATED
AUTHORIZATION ORDER AND AUTHORIZATION MEMO FOR THE WIRE­
TAPPING AT MAY 8,2017 JURY TRIAL.

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
Pitt County Superior Court, State Of North Carolina Case no.l5crs52140-43/16crsl24243.

United States District Court,for the eastern district of North Carolina case no.5:19-HC2153-M.
United States Court Of appeals,for the fourth circuit Case no.20-1458.

TABLE OF CONTENTS
PAGE
OPINION BELOW.

1

JURISDICTION

2

CONSTITUTION AND STATUTORY PROVISION INVOLVED

3

STATEMENT OF THE CASE

4

REASON FOR GRANTING THE WRIT.

5

CONCLUSION.

6

PROOF OF SERVICE

7,8
INDEX TO APPENDICES

APPENDIX-A:The decision of the United States Court of appeals for the fourth circuit.
APPENDIX-B:United States Court of Appeals for the fourth circuit timely filed petition
for Rehearing and Rehearing en banc that was denied.
APPENDIX-C:The order from the United States District Court judge,Honorable Louise
Wood Flanagan,that granted and amended motion to dismiss,vacate charges and
conviction.
APPENDIX-D:The motion to compel discovery that was order by the trial judge,which
the discovery for the United States attorney general special designated authorization
order and authorization memo for the wire-tapping was not produce by Law
Enforcement and district attorney at may 8,2017 jury trial.

TABLE OF AUTHORITIES CITED
PAGE
CASE
United States v. Lomeli,676 f.3d,734,741,-42(8* cir-2012)

5

STATUTES AND RULES
18 U.S.C.§2511(2)(c)(d)...

3,4

Title 111 of the Omnibus crime control and safe act 1968

3,4,5

Both the fourth amendment and Title 111

3,4,5

UNITED STATES CONSTITUTION AMENDMENT
4,5,6,8 and 14 amendment to the United States Constitution,

3

Ineffective assistance of a counsel amendment 6

3,4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of CERTIORARI issue to review the
JUDGEMENT below.

OPINIONS BELOW
The opinion of the United States Court Of Appeals appears at Appendix-A to the petition
is unpublished.
The opinion of the United States Court of appeals appears at Appendix-B to the petition
for the rehearing and rehearing en banc .
The opinion of the United States District Court for the eastern district of N.C by judge
Louise wood Flanagan appears at Appendix-C to the Petition.

The motion for discovery for the United States attorney general for the United States,for
the special designated authorization order and authorization memo that was order by the
trial judge,judge Marvin Blount,Pitt County Superior Court judge,after the mistrial for
the retrial on may8,2017 appears at Appendix-D to the petition.

1

JURISDICTION

The United States Court Of Appeal For The Fourth Circuit,has decided an important
question of federal Law that has not been,but should be,settled by this court,or has
decided an important federal question in a way that conflicts with relevant decision of
this court.
The date the Judgement or order sought to be reviewed was entered on July 27,2020
before the United states Court Of Appeals for the fourth circuit judges, Judge
Wilkinson, Judge Motz,and Judge Richardson circuit court judges appears at Appendix-A

The date the order denies the timely petition for Rehearing and Rehearing en banc
entered on September 1,2020 by circuit judges,judge Wilkinson,judge Motz and judge
Richardson appears at Appendix-B to this petition.
Statutory provision believe to confer on this court jurisdiction to review on a writ of
CERTIORARI the JUDGEMENT or ORDERS in question.

2

CONSTITUTION AND STATUTORY PROVISION INVOLVED

4,5,6,8 and 14 Amendment to the United States Constitution

TITLE 111 of the omnibus crime control and safe act 1968

Both the fourth Amendment and Title 111 requires that certain procedures be follow
when Law enforcement conduct electronic surveillance and wire-tapping.

18 U.S.C.§2511(2)(c)(d)

Ineffective assistance of a counsel violation of Amendment 6,to the constitution of
the United States,and prosecutorial misconduct.

3

STATEMENT OF THE CASE

Pursuant to 18 U.S.C.§251 l(2)(c)(d) that applies both to persons acting under color of
Law and to private individuals not acting under color of law,provided that they do not
intercept with the purpose of committing any criminal or tortious act,thus when a Law
enforcement officer or government informant participates in and records a conversation
without prior judicial authorization, the evidence is inadmissible.
Law enforcement official must first receive authorization from a designated senior
official in the department of justice to apply for a court order authorizing the
interception of wire,oral or electronic communication in connection with the
investigation of certain enumerated crimes.

Only the United States attorney general or deputy attorney general may authorize
application for wire-tapping or oral interception.
The application must be submitted to a court to secure the requisite court order.
According to the discovery provided by the state as part of the controlled purchase of
drug allegedly supposedly made from petitioner on December 16,2014,the confidential
informant placed a phone call to petitioner which was recorded by Detective
R.Pearce,which has not been provided or made available at trial may 8,2017 to the
defense of the petitioner.
Another controlled purchase was allegedly supposedly made from petitioner on
December 29,2014 as part of the ongoing investigation and although the narrative
reports for this date of offense do not specifically mention a recorded phone call on this
date it is possible or even likely that one or more phone calls mentioned in the narrative
were in fact recorded.
See petitioner Appendix-Dmotion to compel discovery that was order by the trial judge
from the mistrial,submitted by former defense attorney,FARIS DIXON,
Attomey-at-Law
The FARIS DIXON LAW FIRM PLLC
SuitB
200 WEST 3rd STREET
GREENVILLE N.C 27858.
That have withdrawn from the case and is now the head DISTRICT ATTORNEY for
PITT COUNTY PROSECUTORIAL DISTRICT.
Which the case was assign to JOHNNIE L.FINCH JR,Attorney for the petitioner.
4

THE LAW OFFICE OF JOHNNIE L.FINCHJR PLLC
110 E.ARLINTON ST
SUIT G
GREENVILLE N.C 27858
TEL:252-331-1176
That is ineffective assistance of a counsel,violation of amendment 6,to the constitution
of the United States,and also prosecutorial misconduct by the District attorney.

REASON FOR GRANTING THE PETITION
This petition should be granted with Dismissal,vacate charges,conviction and
suppression requires when government fail to attached attorney general special
designation authorization order and authorization memo.
In 1967 the supreme court clarified in two cases that wire-tapping and electronic
surveillance are subject to fourth amendment limitation,consequently congress passed
TITLE 111 of the omnibus crime control and safe act 1968.
TITLE 111 prohibits the interception and disclosure of wire,oral and electronic
communication except as provided by statute,an order for electronic surveillance,both
the fourth amendment and TITLE 111 requires that certain procedures be followed when
law enforcement conduct electronic surveillance and wire-tapping.
See United States V. Lomeli,676 f.3d,734,741-42 (8th cir-2012)-suppression requires
when government fail to attached attorney generals special designation authorization
order and authorization memo.

5

CONCLUSION

Both the fourth amendment and TITLE 111 requires that certain procedures be followed
when law enforcement conduct electronic surveillance and wire-tapping,
In this case the law enforcement and the district attorney did not follows the required
procedures for the wire-tapping,and the district attorney and law enforcement did not
produce the attached U.S attorney generals special designation authorization order and
authorization memo for the wire-tapping at may 8,2017 jury trial.

The United States supreme court clarified in two cases that wire-tapping and electronic
surveillance are subject to fourth amendment limitation.
Consequently congress passed TITLE 111 of the omnibus crime control and safe act
1968.TITLE 111 prohibits the interception and disclosure of wire,oral and electronic
communication.
The petition for a writ of CERTIORARI should be granted.

RESPECTFULLY SUBMITTED
KEVEN ANTHONY MORGAN
DATE: SEPTEMBER 2% 2020.

6

